UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




     Official Time for Union Activities


                Report No. OIG-AMR-62-10-01




                                              December 2009
INSPECTOR GENERAL




                NATIONAL LABOR RELATIONS BOARD

                       WASHINGTON, DC 20570

December 11, 2009

This review of Official Time for Union Activities, Report No. OIG-AMR-62-10-01
was conducted to evaluate the management and use of official time for
representational activities by employees in the National Labor Relations
Board’s (NLRB or Agency) bargaining units.

The planning for this review began in July 2008. The Office of Personnel
Management (OPM) had recently issued its yearly report detailing the use of
official time by union officials for Fiscal Year (FY) 2007. In that report, the
NLRB was listed as having the highest per capita use of official time for union
activities. In September 2008, we issued the FY 2009 Audit Plan and included
a review of official time use by NLRB’s union officials as an inspection. In
March 2009, OPM issued its official time report for FY 2008. The NLRB was
again listed as having the highest per capita use of official time with a 5.5
percent increase over FY 2007. Following the issuance of OPM’s report, an
article about the NLRB’s official time use appeared at FedSmith.com, a news
Internet Web site that covers the Federal community. Thereafter, we
determined a detailed review as an audit would be more appropriate than an
inspection.

For FY 2008, 13,447 hours of official time were reported to OPM as being used
by the NLRB’s two employee unions. The reported cost of those hours was
$772,632. We calculated that approximately 7,596.50 hours of that official
time was related to dispute resolution.

We found that the majority of the official time, 8,004 hours, was used by seven
NLRB employees who were union officers. Six of the employees were officers
for the National Labor Relations Board Union’s (NLRBU) Executive Committee
and were designated as either 100 or 50 percent official time in accordance
with the collective-bargaining agreements. The collective-bargaining
agreements with the NLRBU approved the use of this official time in advance
without any requirement of a showing of need for the time. The remaining
employee was President of the National Labor Relations Board Professional
Association (NLRBPA), who only engaged in representational activities in FY
                                        TABLE OF CONTENTS

BACKGROUND ............................................................................................... 1

OBJECTIVE, SCOPE, AND METHODOLOGY ................................................... 2

FINDINGS ....................................................................................................... 3

USE OF OFFICIAL TIME ................................................................................. 3

OFFICIAL TIME FOR DISPUTES...................................................................... 5

APPROVAL OF OFFICIAL TIME ....................................................................... 6
 100 and 50 Percent Official Time Officials..................................................... 6
 Banks of Official Time .................................................................................. 6
 All Other Official Time Users......................................................................... 7

USE OF OFFICIAL TIME FOR NON-REPRESENTATIONAL ACTIVITIES ............ 7

VARIANCES IN REPORTING OFFICIAL TIME................................................... 8
 Reporting by the 100 Percent Users .............................................................. 8
 Employees with Missing Monthly Reports, Errors, and Estimations .............. 9

REPORTING OFFICIAL TIME......................................................................... 10
 Monthly Report Submission ....................................................................... 10
 Forms Used to Collect Official Time Information ......................................... 10
 Recording Official Time in the Payroll System ............................................. 11

COMPARISONS BETWEEN THE NLRB, NLRBU, AND NTEU .......................... 12

RECOMMENDATIONS................................................................................... 13

APPENDIX

        Memorandum from the Chief of Staff and the Deputy General
        Counsel, Draft Report Official Time for Union Activities, OIG-AMR-
        62, dated December 9, 2009
                                 BACKGROUND

The Federal Service Labor-Management Relations Statute allows certain
Federal employees to organize, bargain collectively, and participate through
labor organizations of their choice in decisions affecting their working lives. At
the National Labor Relations Board (NLRB or Agency), there are two labor
organizations. The National Labor Relations Board Union (NLRBU) represents
field attorneys, field examiners, and support staff in the field offices and
support staff employees at NLRB Headquarters. The National Labor Relations
Board Professional Association (NLRBPA) represents non-supervisory attorneys
at NLRB Headquarters. The employees represented by the two unions are
known as “bargaining unit” employees. There are six collective-bargaining
agreements covering bargaining unit employees at the NLRB – four with the
NLRBU and two with the NLRBPA. Collectively, these agreements cover
approximately 1,100 bargaining unit employees.

Official time is time granted to an employee by the Agency to perform
representational functions when the employee would otherwise be in a duty
status without charge to leave or loss of pay. The NLRB is required by the
Federal Service Labor-Management Relations Statute to allow union
representatives to use official time for certain representational activities, and
has agreed to its use for other permissible activities pursuant to its collective-
bargaining agreements with the two unions. Each of the collective-bargaining
agreements requires that the users of official time submit a written and signed
monthly report stating the amount of official time used during the preceding
month.

The Office of Personnel Management (OPM) requires that departments and
agencies report annually on the use of official time by their labor organizations.
The NLRB obtains the information needed to meet the OPM requirement by
tallying the information it receives on monthly reports from employees who
used official time.

In Fiscal Year (FY) 2008, the Agency reported to OPM that the NLRBU and
NLRBPA used 13,447 hours of official time, at a rate of 12.18 hours per
bargaining unit employee. The amount of time per bargaining unit employee
exceeded the amount reported by any other department or agency.
The Agency also reported that the cost of this official time in salary and
benefits was $772,632.
                 OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to evaluate the management and use of official
time for representational activities by employees in the Agency’s bargaining
units. Our scope was official time used during FY 2008.

We reviewed the statute that requires agencies to authorize official time, OPM
memorandums and guidance, and the six collective-bargaining agreements at
the Agency. We also reviewed collective-bargaining agreements from other
agencies.

We interviewed officials in the Division of Operations-Management and the
Human Resources Branch to identify and gain an understanding of the
processes used to manage official time and collect and compile figures provided
for the annual report to OPM. We obtained information from both Board and
General Counsel managers and supervisors. We also spoke to NLRBU and
NLRBPA officials and members regarding issues involving monthly reports.

We obtained the monthly reports prepared by bargaining unit employees who
used official time from the Division of Operations-Management and the Human
Resources Branch. We also obtained from the field and Headquarters
managers information regarding grievances, adverse personnel actions,
meetings for which official time could be used, and documentation of
supervisory approval. We compared the number of grievances, adverse actions,
and other disputes to the amount of official time reported as being used for
that activity. We tested to determine whether the use of official time was
supported by a request from the employee and approval by the employee’s
supervisor. We verified the information from the monthly reports to determine
if it was accurately compiled into the Agency’s annual report to OPM.

This audit was performed in accordance with generally accepted government
auditing standards during the period May 2009 through October 2009. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence
obtained provided a reasonable basis for our findings based on our audit
objectives. We conducted this audit at NLRB Headquarters in Washington, DC.




                                       2
                                   FINDINGS

We found that the majority of official time used by the NLRB’s employee unions
was used by six NLRBU Executive Committee members and the NLRBPA
President. We also found that most of the official time was used for dispute
resolution.

The use of that time by the six NLRBU Executive Committee members and the
NLRBPA President was without any requests to or approvals by a supervisor or
manager. Other than the monthly reports submitted by the individual
employees, there was no documentation to support the need for the use of that
official time. Given the cost of the official time, the lack of oversight, and the
disparity with the Governmentwide average, we question whether the amount
of time used by these officials meets the statutory test of reasonableness,
necessity, and public interest.

We also identified internal control issues for employees who used official time
that were not a member of the NLRBU Executive Committee or the NLRBPA
President. The request and approval documentation was generally not
maintained by managers and supervisors. Because of a lack of documentation
of requests and approvals, we were limited to testing the appropriateness of the
use of official time to the information on the monthly reports submitted by
union officials. Through our testing, we found that not all official time was
reported on a monthly report as required by the collective-bargaining
agreements. Given the lack of documentation of the approval for the use of
official time, the errors that we found could indicate a significant issue for the
Agency.

We also found that the Agency could, but does not, record the use of official
time by bargaining unit employees in its payroll system. Instead, four different
forms are used to record official time information on a monthly basis. The
forms do not match the categories reported to OPM, and the Division of
Operations-Management estimated the allocation of official time into the
categories that are reported to OPM. That estimate was not precise.

USE OF OFFICIAL TIME

The collective-bargaining agreements between the General Counsel and the
NLRBU field office employees state that two members of the NLRBU Executive
Committee will be entitled to 100 percent official time for representational
purposes, and another four members of the Executive Committee will be
entitled to 50 percent official time. The Agency’s collective-bargaining
agreements with the NLRBPA state that Association representatives will be
granted official time for certain activities, but the agreements do not state a



                                        3
percentage of time for Association officers. For the NLRBPA, the President used
all of her official time for representational activities in FY 2008. Below is a
chart that shows the distribution and allocation of the use of official time:

                        Agencywide Use of Official Time

                                                         Percent of
                                                          Agency’s    Hours per
                                                         Bargaining   Bargaining
                        Total               Employees       Unit         Unit
                        Hours    Percent   Represented   Employees    Employee
  NLRBU:
  Executive
  Committee              6,520      48%
  NLRBU District Vice
  Presidents and
  Committees             1,200       9%        957        86.68%        10.92
  NLRBU Local
  Officials              2,635      20%
  NLRBU Washington
  Local                    98        1%
     Total NLRBU        10,453      78%


  NLRBPA
  NLRBPA President -
  100 Percent User       1,484      11%        147        13.32%        20.37
  NLRBPA – Other         1,510      11%
     Total NLRBPA        2,994      22%

  Agency Total          13,447                 1,104                    12.18

The rate of 12.18 hours of official time per bargaining unit employee exceeded
the amount reported by all other departments and agencies by at least 2 hours
and represented an increase of 5.5 percent over the amount of official time
reported in FY 2007.

The 8,004 hours of official time used by the NLRBU Executive Committee and
the NLRBPA President amounts to 7.25 hours of official time per bargaining
unit employee. The estimated cost of that time is $459,910. If no other official
time had been used during FY 2008, that rate would exceed all but one of the
amounts reported by other departments and agencies. That rate would also
exceed the FY 2008 Government average of 2.6 hours per bargaining unit
employee.




                                           4
OFFICIAL TIME FOR DISPUTES

We calculated that approximately 7,596.50 hours of official time are related to
dispute resolution. Of that amount, the rate of official time per bargaining unit
employee for the NLRBU was 6.84 hours per bargaining unit employee and for
the NLRBPA it was 7.13 hours per bargaining unit employee. The overall
dispute resolution rate for official time per bargaining unit employee for the
Government was 0.47.

The charts below show a comparison of the use of official time for dispute
resolution by the status of the official or officials using the time.

                     NLRBU Official Time for Dispute Resolution
                             District
 Executive                     Vice                                         District
 Committee     Hours        Presidents   Hours    Committees   Hours        Locals       Hours
President       719.50     DVP – A       308.00   EEO             58.00     A            701.50
Vice
President       467.00     DVP – B        75.00   H&S              6.00     B            234.50
Treasurer       390.25     DVP – C       239.75                             C            103.50
Secretary       290.00     DVP – D         0.00                             D            333.50
Grievance
Committee
Chairperson   1,539.75     DVP – E        46.00                             E            202.25
Support                    Washington
Staff Rep.      795.00     DVP            38.25                             Wash           0.00
Total         4,201.50                   707.00                64.00                   1,575.25


To provide perspective for the amount of time used for dispute resolution, we
also compiled the information regarding the status and resolutions of disputes
for FY 2008.

                     NLRBU Status and Disposition of Disputes

                                  Grievances                          Adverse       Other
 Hours        Denied        Settled     Arbitration     Pending       Actions       Disputes
 6,547.75       7             10             8             2            13               2

Because the NLRBPA does not have the same structure as the NLRBU, we have
combined the information into one chart.

                     NLRBPA Status and Disposition of Disputes

                                  Grievances                              Adverse      Other
 Hours      Denied     Settled   Arbitration Pending    Withdrawn         Actions      Disputes
1,048.75      3          11           1         4           3                1             0



                                              5
APPROVAL OF OFFICIAL TIME

For the NLRBU, the collective-bargaining agreements state that Executive
Committee members and their supervisors will regularly communicate
regarding his or her work and official time requirements. The agreements also
state that “[u]se of official time by members of the Executive Committee is
hereby approved, unless the necessity of Agency work requirements outweighs
the need for official time.” In all other cases, NLRBU bargaining unit employees
are required by the agreements to request approval for the use of official time
from a supervisor. The agreements for the Washington Local also require that
the request be in writing.

For the NLRBPA, the collective-bargaining agreements state that before using
official time an employee will, to the maximum extent possible, notify his or her
supervisor, and the supervisor will approve the request in accordance with
various provisions of the agreement. Although we cannot determine why, the
NLRBPA President used all of her official time for representational activities
without having to meet the request and approval requirement of the collective-
bargaining agreements.

100 and 50 Percent Official Time Officials

The law permits the Agency and its unions to negotiate official time in
connection with other labor-management activities, as long as the time is
deemed reasonable, necessary, and in the public interest.

Given the cost of the official time for the NLRBU Executive Committee and the
NLRBPA President, the lack of review and approval of the use of the official
time, and disparity with the Governmentwide average, we question whether the
amount of time used by these officials meets the statutory test of
reasonableness, necessity, and public interest.

When we reviewed and compared collective-bargaining agreements from other
agencies that had similar sized bargaining units, we found examples of allotted
time with controls that appear to ensure reasonableness, necessity, and public
interest of the official time used. We also found that only the Equal
Employment Opportunity Commission, the agency with the second highest
level of official time per bargaining unit employee, had 100 percent official time
positions.

Banks of Official Time

The collective-bargaining agreements set up banks of official time that can be
used for a particular purpose, such as training for union officials. Consistent
with the statements of representatives of the Division of Operations-
Management and the Human Resources Branch, we found that the Agency


                                        6
does not generally track the use of the time allocated to those banks to ensure
that the time limits are not exceeded.

All Other Official Time Users

The Government Accountability Office's Standards for Internal Control in the
Federal Government state that procedures and all transactions and other
significant events need to be clearly documented, and the documentation
should be readily available for examination.

We requested from each office head all documentation, correspondence, or
other writings regarding supervisory approval of official time and any records
related to the monitoring and reporting of official time. We compared this
information to the monthly reports submitted by employees who used official
time.

From the 13,447 hours of official time used in FY 2008, we excluded the official
time allocated to the NLRBU Executive Committee. For the remaining 6,927
hours that should be documented by a request, Agency managers produced 38
written requests with approval for a total of 71 hours of official time. The
managers also provided nine requests for official time without any evidence of
approval for 34 hours of official time.

USE OF OFFICIAL TIME FOR NON-REPRESENTATIONAL ACTIVITIES

Official time may not be used for activities related to the internal business of
the union. Because of a lack of documentation of requests and approvals, we
were limited to testing the appropriateness of the use of official time to the
information on the monthly reports submitted by union officials. For both the
NLRBU and the NLRBPA the monthly reports include an “other” category that
could be used to report activity that may not be appropriate for official time.

For the NLRBU, the monthly report category for Other Representation includes
space to provide a description of those activities. There was a total of 508.25
hours reported for Other Representation. Of that total, there were 17.25 hours
that consisted of internal union business and 9.75 hours that either did not
have a description or stated “Other.” The descriptions by the employees who
used official time for internal union business included banking and budgetary
activities, ordering member goods, participation in local elections, and
attending a union party. We did not find a basis to question the remaining
481.25 hours.

For the NLRBPA, there were 597.75 hours reported for Other Representation
Activities. The monthly report used by the NLRBPA does not include space for
a description of those other activities.



                                        7
When comparing the other representation categories between the NLRBU and
the NLRBPA, we found that, relative to total official time that we calculated and
the number of bargaining unit employees, the NLRBPA reported a significantly
higher amount than the NLRBU. The details of this comparison are shown
below:

                          Official Time Classified as
                       Other Representational Activities

                                                                      Other
                     Other                         Percentage     Representation
                 Representation   Total Official   of Official      Hours per
                     Hours            Time            Time          Employee
      NLRBU              508.25      10,429.75               5%               0.5
      NLRBPA             597.75        2,985.00            20%                4.1



VARIANCES IN REPORTING OFFICIAL TIME

We found that between 240.5 and 435.75 hours in official time was not
included in the annual report to OPM. These hours can be divided into two
categories. First, the monthly reports by the union officers who use 100
percent official time did not balance against the total official time available to
each of them. Second, 32 employees who used official time did not include
that time on a monthly report and some monthly reports were missing or not
compiled into the Agency’s report to OPM.

Reporting by the 100 Percent Users

We reconciled the duty hours available to each of the three union officials that
use 100 percent of their official time for representational activities to the
number of hours that each officer reported as being used for official time. In
FY 2008, excluding weekends and Federal holidays, there were 2,008 hours
available for work. To determine the hours available for each union officer, we
deducted from 2,008 any time used for an approved absence. To that number
we made adjustments based on information provided by the union officials
regarding credit hours, training, administrative leave, and Agency work that
they may have performed. We then compared the resulting figure to the hours
reported by each union officer. We found that fewer than all of the available




                                           8
hours were recorded as being used for union activities. The table below shows
the differences:



                    Union Official   Union Official   Union Official
                          1                2                3          Total

       Difference           66.75             14.25          114.25    195.25


We also found that none of the union officials calculated his or her official time
in the same manner. One union official counted time based upon an estimate
of actual time spent on union activities. Another union official generally
counted a full day as 8 hours without regard to the actual time spent on union
activities. The third union official did not complete the monthly reports in a
timely fashion.

Employees with Missing Monthly Reports, Errors, and Estimations

We found that 26 local union officials who attended the NLRBU’s annual
conference did not include 8 hours of union training time in his or her monthly
report. The total time underreported was 205 hours.

Over the course of the audit, we identified four employees with missing
monthly reports whose time was not reported by the Agency. For each
employee, we found a request from the employee to use official time that was
used, but no corresponding monthly report. We also found a monthly report
that was submitted by one employee, but was not included in the Agency’s
report to OPM. For another employee, a small mathematical error was made in
tallying the reports. Together, these variances resulted in an underreporting of
35.5 hours of official time for union activities.

For two employees, it appears that official time was estimated. One of the
employees did not submit a report prior to going on extended leave. A
management official estimated that employee’s official time at 104 hours. The
basis for the estimation appears reasonable. For the second employee, who is
a 100 percent official time union official, one monthly report was missing. A
management official estimated the union official’s time to the total available
hours for that month. The basis for that estimation also appears to be
reasonable, but is not consistent with the method used by the union official.

Given the lack of documentation of the approval for the use of official time,
these types of errors could indicate a significant issue for the Agency.




                                          9
REPORTING OFFICIAL TIME

We reviewed the procedures that the Agency uses to collect and compile the
amount of official time used to determine whether the report to OPM was
complete and accurate. We identified three issues that negatively impacted the
completeness and accuracy of the amounts reported: the majority of employees
using official time are not required to provide monthly reports to their
supervisor; the forms used to collect and compile official time are not
consistent with the data elements required by OPM; and official time is not
regularly reported in the Agency’s payroll system.


Monthly Report Submission

Monthly reports for the NLRBU field office support and professional staff are
provided to office managers and then sent to the Division of Operations-
Management where the information is summarized for the annual report to
OPM. Monthly reports for NLRBU Washington Local and NLRBPA employees
are provided to the employee’s immediate supervisor and copies are sent to the
Human Resources Branch, Labor Relations Section.

We believe that the level of control is greater when the supervisor collects the
monthly reports, as opposed to the office manager. The employee’s supervisor
should be the most knowledgeable of how his or her subordinate used their
time and, therefore, is in a better position to determine whether the monthly
reports are accurate. The supervisor is also in the best position to know when
a monthly report is due from a subordinate and whether the official time was
properly requested and approved.


Forms Used to Collect Official Time Information

For the annual report to OPM, agencies are required to categorize the official
time used as term negotiations, mid-term negotiations, dispute resolution, or
general labor-management relations activities.

There are four monthly reports used to report official time. The form used by
the NLRBPA contains four data elements. The form used for the NLRBU’s
Washington Local contains 10 data elements. The form used by the NLRBU’s
other local officials contains 17 data elements. The form used for NLRBU’s
national officials contains 27 data elements. Each of the forms used by the
NLRBU includes a place to list and describe other representational activities.

None of the forms collect the information on official time in the exact categories
required by OPM. To convert the numbers from the NLRBU reports for field
offices into the OPM categories, an official in the Division of Operations-


                                       10
Management redistributes the hours into the OPM categories based on his
estimation of the time spent on each category.

We recalculated these amounts using the information on the monthly reports
to determine if the estimate was accurate and found significant differences
between our calculation and the estimate used for the report to OPM. The
differences are as follows:

                  NLRBU Field Office Official Time by OPM Category
                       OIG Calculation vs. Agency Estimate


                                                              General Labor-
                      Term         Mid-term       Dispute      Management
                   Negotiation    Negotiation    Resolution     Relations         Total

Recalculated by
OIG Based on
Monthly Reports               0        176.50      6,509.50         3,656.25   10,342.25

Agency Estimate               0       1,035.50     3,106.50         6,213.00      10,355

Difference                    0        859.00      3,403.00         2556.75        12.75*

  (*The difference in the total is due to errors made compiling the report sent
  to OPM.)

Recording Official Time in the Payroll System

The requirements for a Federal payroll system include that it must capture
time and attendance information on the scheduled hours worked, units of pay,
and leave taken. In November 2003, the Director of OPM issued a
memorandum stating in part that OPM’s e-payroll initiative will establish
reporting mechanisms for the use of official time for union representational
purposes as part of every agency’s payroll system. The payroll system used by
the Agency meets OPM’s reporting guidelines by having five pay codes that
could be used to record official time:

                                                                        Used by
     Pay                                                                Agency
     Code    Description                                                 (Y/N)
     ALR     Administrative Leave - Union/Labor Relations - Used           Y
     LRD     Labor Relations - Dispute Resolution                          N
     LRG     Labor Relations - General Labor Management Relations          N
     LRM     Labor Relations - Mid-term Negotiations                       N
     LRT     Labor Relations - Term Negotiations                           N




                                          11
In October 2005, the Human Resources Branch attempted to implement the
recording of official time in the payroll system. Based upon available records, it
appears that the attempt was abandoned because OPM had not promulgated
regulations mandating the use of the payroll codes and the codes did not
correspond to the categories and reporting requirements of the Agency’s
collective-bargaining agreements. Because OPM was not requiring the use of
the payroll codes, the Agency at that time determined that it could not require
the unions to bargain for a new official time reporting format or system until
the parties begin contract negotiations.

Using the Agency’s payroll system would be an appropriate internal control. A
biweekly recording of time will capture the use of official time when it occurred
and the certifying official could ensure the accuracy of the entries. Use of the
payroll system would also capture data for the OPM report in the proper
categories and alleviate the administrative burden on the Headquarters
personnel who prepare the OPM report. The payroll system can also generate
timely reports to keep Agency managers informed of the use of the official time.

COMPARISONS BETWEEN THE NLRB, NLRBU, AND NTEU

We compared the dues paid by NLRBU employees to dues paid by employees in
unions that are affiliated with the National Treasury Employees Union (NTEU).
Because the cost of providing representational services for the NLRBU
members is provided by NLRB employees using official time rather than a
national umbrella organization such as the NTEU, we expected to see lower
dues for the NLRBU members as compared to the NTEU members. Below are
the results of our comparison:




                                       NLRBU for Year     NTEU for Year
                                       Ending 1/31/09    Ending 9/30/08
       Assets                                  687,091          20,373,517
       Dues and Agency Fees                    221,215          25,356,328
       Members                                     759              79,193


       Assets per member                           905                257
       Dues per member*                            291                320

    (*For the NLRBU, the amount of dues ranged from $149.61 to
    $325.11.)

We also compared the average cost of official time per bargaining unit employee
for the NLRB and the departments and agencies that have one or more unions


                                       12
that are affiliated with the NTEU. The NTEU represents employees at 17
departments or agencies. At those departments and agencies, the average
official time cost per bargaining unit employee is $159.42. For the NLRB, the
average cost of official time per bargaining unit employee is $699.85.


                             RECOMMENDATIONS

We understand that the Agency is currently involved in litigation regarding the
consolidation of bargaining units and that action on one or more of our
recommendations may be delayed pending the resolution of those matters.

We recommend that the Board and General Counsel, in accordance with their
basic contractual obligations and in a manner that is consistent with their
obligations under the Federal Service Labor-Management Relations Statute:

      1. Engage in bargaining over the elimination of the pre-approved
         allocation of 100 and 50 percent official time positions to the NLRBU
         Executive Committee and seek to institute a means of request and
         approval of the official time used by the union officials in those
         positions when negotiating new collective-bargaining agreements.

      2. Require that before utilizing official time, NLRBPA bargaining unit
         employees, to the maximum extent possible, request official time in
         advance of using it as is consistent with NLRBPA’s collective-
         bargaining agreements.

      3. Establish an Agencywide system of records documenting the request
         for and use of official time when negotiating new collective-bargaining
         agreements.

      4. Include provisions in the collective-bargaining agreements that
         require:

         a. That requests for and reports of official time for union activity be
            provided to the employee’s supervisor; and

         b. The use of the Agency’s payroll system to record official time for
            union activity.




                                       13
APPENDIX
